<html>
<title> - U.S. POLICY TOWARD AFGHANISTAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     U.S. POLICY TOWARD AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2018

                               __________

                           Serial No. 115-155

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
   
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-496PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1077607f507365636478757c603e737f7d3e">[email&#160;protected]</a>                              
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Alice G. Wells, Principal Deputy Assistant 
  Secretary, Bureau of South and Central Asian Affairs, U.S. 
  Department of State............................................     3

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Alice G. Wells: Prepared statement.................     5

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
Written responses from the Honorable Alice G. Wells to questions 
  submitted for the record by:
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    43
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................    50
  The Honorable Lois Frankel, a Representative in Congress from 
    the State of Florida.........................................    51
  The Honorable Joaquin Castro, a Representative in Congress from 
    the State of Texas...........................................    54
  The Honorable Thomas R. Suozzi, a Representative in Congress 
    from the State of New York...................................    59

 
                     U.S. POLICY TOWARD AFGHANISTAN

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing on U.S. policy toward 
Afghanistan will come to order.
    Afghanistan has been at war since 1979. The human suffering 
has been horrendous. Real threats to U.S. national security 
have followed.
    As a result, the U.S. has had no choice but to engage in 
Afghanistan. First, we helped counter the brutal Soviet 
invasion and then we helped dislodge the Taliban and combat al-
Qaeda after the September 11 attacks.
    Afghanistan has been called ``America's longest war.'' 
Thousands of Americans have lost their lives. We have spent 
hundreds of billions of dollars.
    This investment aims to achieve a stable Afghanistan that 
does not harbor international terrorists. Should the Afghan 
Government fail, the vacuum surely would be filled.
    ISIS and the ayatollah would be among those who would 
benefit. So today we will ask: Where should we go from here?
    We currently have 14,000 U.S. troops in Afghanistan. This 
is dramatically down from a high of 100,000 in 2011. Their 
current focus is training Afghan security forces and 
counterterrorism, and there has been some success.
    Fortunately, many allies are still with us. But Afghans 
need the ability and also the will to fight for their own 
country.
    Last week, there was a brief cease fire and renewed Afghan 
Government outreach to the Taliban, which the administration 
endorsed.
    Yet, the Taliban continues the fight and has rejected all 
offers to enter into negotiations with the internationally 
recognized and backed Afghan Government.
    This conflict does not need a sustainable political 
resolution of some sort that is going to fall apart. What it 
needs is a well-thought through sustainable situation that will 
hold for the people of Afghanistan and that leads to a credible 
competent Afghan Government.
    And the administration moved these things in the right 
direction by scrapping restrictive rules of engagement that had 
hamstrung U.S. forces. It dropped a politically-driven time 
line for our engagement established by the previous 
administration.
    It's putting more pressure on Pakistan, which aids and 
abets the Taliban and other jihadist groups, and Taliban 
finances are being targeted.
    These are good steps, but it's unclear if they will change 
the fundamentals that have frustrated an acceptable resolution 
for so long.
    After all these years, what do we really know about the 
Taliban? How fragmented is it? Can it ever be brought into a 
durable political settlement?
    Would Pakistan, or Russia and Iran, both increasingly 
engaged with the Taliban, sabotage any settlement?
    We should be proud of our many contributions to development 
in Afghanistan, including dramatically expanding education and 
the cause of women, despite rampant corruption.
    I've met with some of these women. The girls can now go to 
schools. That was prohibited, of course, under the Taliban. 
I've talked to teachers who've had the soles of their feet 
lashed when they were caught teaching girls.
    The stories of these girls are incredibly inspiring. The 
stories of women who are now part of the government in 
Afghanistan are inspiring.
    But, frankly, in other ways, we've been treading water. 
While leaving today would do more harm than good, our 
substantial military and development commitment to Afghanistan 
cannot be open-ended.
    We need to see more progress. And with that, if we have--
our ranking member is not with us yet but he'll make his 
statement, Ambassador Wells, after your opening statement.
    So this morning, I am pleased to welcome Alice Wells, 
Principal Deputy Assistant Secretary of State for South and 
Central Asian Affairs to the committee.
    Ambassador Alice G. Wells has been serving as the Principal 
Deputy Assistant Secretary of State for South and Central Asian 
Affairs since June 2017.
    She is a career Foreign Service officer and she has 
previously served as the United States Ambassador to the 
Kingdom of Jordan.
    She has held numerous positions within the Department of 
State and has extensive experience in South and Central Asia, 
and we very much appreciate her being with us today.
    Without objection, the witness' full prepared statement is 
going to be made part of the record. Members are going to have 
5 calendar days to submit any statements or questions or 
extraneous material for the record.
    And I'll ask Ambassador Wells if she would summarize her 
remarks and then afterwards we will go to questions.
    Thank you.

  STATEMENT OF THE HONORABLE ALICE G. WELLS, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Wells. Chairman Royce and Ranking Member Engel, 
thank you for inviting me to appear today to discuss the 
administration's strategy in Afghanistan.
    This is a timely hearing. Just last week, a cease fire--the 
first in 17 years--brought peace to Afghanistan during the 
period of Eid and, like many Americans, I was struck by the 
images of Afghan soldiers and Taliban praying together, side by 
side.
    If Afghan troops and Taliban foot soldiers can pray 
together, then the Afghan people have every reason to believe 
that their leaders can come together and negotiate an end to 
this war.
    Helping to jumpstart an Afghan peace process is among 
Secretary Pompeo's highest priorities and has been my primary 
focus since assuming responsibility for this account 1 year 
ago.
    The President's South Asia strategy, announced last August, 
is making a difference. Its conditions-based approach has 
signaled to the Taliban that they cannot win on the 
battlefield, and has provided President Ghani with renewed 
confidence to pursue a negotiated political settlement.
    His February 2018 invitation to the Taliban to enter into a 
peace process without preconditions as unprecedented. Equally 
unprecedented was President Ghani's announcement of the 
temporary cease fire for the weeks surrounding the Eid 
holidays.
    The national outpouring of relief and joy last weekend was 
unlike anything Afghanistan has seen. Taliban fighters wandered 
the streets of the cities. They took selfies with Afghan 
soldiers.
    The sampled Eid treats with Afghan citizens and they 
worshiped alongside those they had been exchanging fire with 
just a few days earlier.
    For many Afghans, Taliban and pro-government alike, it was 
an exhilarating first taste of what peace might look like.
    The United States has made clear that we are prepared to 
support, facilitate, and participate in direct negotiations 
between the Afghan Government and the Taliban.
    We will support all Afghan stakeholders as they work to 
reach a mutually agreeable negotiated settlement that ends the 
conflict and ensures Afghanistan is never again used as a safe 
haven for terrorist groups.
    Our desired outcomes for any peace process are clear and 
have not changed. The Taliban must renounce violence, break 
ties with al-Qaeda, and accept the Afghan constitution, 
including its protections for women and minorities.
    Although the Taliban and ISIS Khorasan remain potent 
enemies, the South Asia strategy is having an impact on the 
battlefield. With tactical level support from U.S. military 
advisors, the Afghan security forces have slowed the Taliban's 
momentum.
    Improved air support, a generational shift in leadership, 
and a doubling of the size of special forces are creating 
conditions for a political process to achieve a lasting peace.
    Alongside our military campaign we are working with our 
partners, especially in the Gulf, to help strangle the 
Taliban's illicit revenue from foreign sources and narcotics 
trafficking.
    We are supporting the Afghan Government's outreach to the 
global Muslim community to delegitimize the religious 
underpinnings of the Taliban's violent campaign and we are also 
calling on Afghanistan's neighbors, especially Pakistan, to 
take additional steps in support of peace.
    Despite some positive indicators, we have not yet seen 
Pakistan take the sustained or the decisive steps that we 
believe it should pursue, including arresting or expelling 
Taliban elements who will not come to the negotiating table.
    We are also encouraging the Afghan Government reforms in a 
bid to further sap the insurgency of support. Upcoming Afghan 
elections for Parliament in October and for President in early 
2019 must be timely, transparent, and credible.
    We are providing targeted assistance to Afghan electoral 
institutions to assist with voter registration and reduce 
electoral fraud. More than 6 million Afghans have registered to 
vote and more than 5,000 candidates will be standing for public 
office.
    President Ghani is an economic reformer, but Afghanistan 
still ranks near the bottom in Transparency International's 
rankings. There has been some institutional progress, including 
the establishment of an anti-corruption justice center.
    But progress has been slow. However, there have been bright 
spots as well. Over the last year, the Afghan Government has 
improved its fiscal performance and is a funding a greater 
share of its budget.
    The U.S. share of pledged donor support has dropped from 
about 50 percent in 2012 to 25 percent today. The Afghan people 
who face the deadly toll of this war every day understand the 
need for peace and so too do the thousands of U.S. personnel 
working to implement the administration's strategy.
    As I noted earlier, the key questions remains: Will the 
Taliban join the peace process and make the compromises 
necessary to end the war?
    We are prepared to test this proposition.
    Mr. Chairman, Mr. Ranking Member, thank you for the 
opportunity to appear before your committee. Congress' support 
is crucial to our strategic progress and I look forward to 
addressing your questions.
    [The prepared statement of Ambassador Wells follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador Well.
    We now go to Mr. Eliot Engel of New York, the ranking 
member of the committee.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this hearing, and Ambassador, thank you for your time and for 
your service.
    Our policy, obviously, toward Afghanistan is critical. 
Fifteen thousand American troops remain on the ground there 
fighting America's longest war and we provide billions in 
assistance every year.
    In the 17 years since Americans first deployed to 
Afghanistan after September 11th, our troops and those of our 
allies have performed heroically. There has been significant 
progress on the counterterrorism front against al-Qaeda.
    Once estimated as many as 5,000, the number of al-Qaeda 
fighters in Afghanistan is now thought to be in the low 
hundreds. Unfortunately, those gains against al-Qaeda aren't 
comparable to the fight against the Taliban, which most experts 
consider a stalemate.
    The Trump administration announced its approach to deal 
with the stalemate nearly a year ago in what it termed a new 
strategy for Afghanistan and South Asia.
    It is meant to be a so-called conditions-based approach 
that emphasizes fighting to win, downplays nation building, 
includes a stronger line against Pakistan, and a larger role 
for India, eliminates time tables, expands targeting 
authorities for U.S. forces and, notably, commits to sending 
additional troops.
    In sum, the administration seems to be planning to escalate 
the war in order to break the stalemate, forcing the Taliban to 
the negotiating table.
    But what happens if that stalemate is not broken? In its 
April 2018 report, the U.S. special inspector general for 
Afghanistan reconstruction--what we call SIGAR--found that the 
share of districts in Afghanistan under government control or 
influence is 56 percent.
    Unfortunately, that ties the lowest level ever recorded by 
SIGAR. So we need to be honest. Even with the best military in 
the world it's impossible to kill every member of the Taliban.
    Despite the President's talk, even members of the 
administration acknowledge that the war in Afghanistan will not 
be won on the battlefield. The President needs a strategy based 
on the facts as they are, not as he wishes them to be.
    So I thank all of the countries which have committed troops 
to the fight in Afghanistan for so many years. But I worry with 
attacks on NATO and our allies coming from the President we are 
undermining the very alliance which binds the coalition 
fighting for the future of Afghanistan and our security.
    So rather than putting more Americans in harm's way, the 
administration should focus its resources on achieving a 
political resolution to the conflict. It's a tough pill to 
swallow, no doubt about it.
    Many brave Americans have perished at the hands of Taliban 
fighters. The Taliban's continued existence is a fact we need 
to deal with and the old adage remains true--you don't make 
peace with your friends.
    Taliban refuses to talk directly with the Afghan 
Government. They view it as illegitimate. That's, obviously, 
made progress on reconciliation impossible.
    However, the Taliban has maintained an interest in talking 
with the United States, even after the President told the U.N. 
Security Council this past January that the U.S. wasn't 
prepared to talk right now.
    That's a mistake. If American interests are best served by 
negotiating directly with the Taliban, then we should stop 
kicking the can down the road.
    The Taliban claim that they will completely separate 
themselves from international terrorism and respect the rights 
of women and minorities--it's time to see if they are serious.
    Recent developments may give us an opening--the recent 
Afghan Government cease fire, the Taliban separate but 
reciprocal cease fire, a potential convergence of interests 
against the growing threat of the ISIS offshoot in Afghanistan.
    So far, we have squandered the opportunity. We have heard 
nothing about how we plan to seize on the cease fire, and 
that's no real surprise because, as I have been finding for 
many, many months now, the administration doesn't prioritize 
diplomacy.
    The State Department Office of the Inspector General found 
that the Bureau of South and Central Asian Affairs ``lost both 
staff and expertise'' as a result of the reckless hollowing out 
of the State Department.
    Among those cuts were the experts on peace talks with the 
Taliban and reconciliation.
    So, Ambassador Wells, now that the hiring freeze is over we 
will be interested in hearing how the administration plans to 
reconstitute this expertise. We cannot miss the next diplomatic 
opportunity because we don't have diplomats up to the job.
    And diplomacy is going to be at the center of solving this 
challenge. After many years of war, it's crystal clear that 
there is no military solution to end the fighting in 
Afghanistan.
    But that doesn't foreclose a path to peace that advances 
American security interests. Now is the time to make peace and 
security our number-one goal and to implement a strategy in 
Afghanistan that will help us achieve it.
    We owe this to the women and men who serve our country in 
uniform, to those who gave the ultimate sacrifice fighting this 
war, and to those who perished on September 11, 2001, in my 
home city of New York.
    So I look forward to your testimony. I know you've started 
and we are very happy to have you here.
    I thank you again, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    So, Ambassador Wells, I think the key question here in 
terms of the willingness of factions in the Taliban or the 
overall organization to reach some kind of settlement goes to 
their intentions, and there have been cease fires. But 
yesterday there were 30 Afghans killed by Taliban soldiers 
when, on the Taliban side, they lifted that cease fire.
    Let me ask you, in your judgment is the Taliban, at the end 
of the day, interested in a political settlement? What do 
circumstances tell you and how would we get there?
    We saw President Ghani offer a series of moves, of 
prisoners releases, medical aid for wounded soldiers, this 
latest cease fire, and fraternization that presumably might 
bring down the tensions.
    And yet, here was the attack yesterday. Give me your view 
on this.
    Ambassador Wells. The Taliban have long said that they do 
support a political--or negotiations but only with the United 
States, not with the sovereign Government of Afghanistan, and I 
think what we learned from this cease fire that was very 
interesting was just how much the foot soldiers and the 
commanders inside of Afghanistan do desire peace, and the 
celebration of the Eid was spontaneous and it was countrywide.
    And so I think where we are right now is the Taliban 
leadership, many of whom enjoy sanctuary outside of the country 
and don't feel the pressures of day-to-day war, have not yet 
been convinced to come to the negotiating table, despite what 
has been an extremely forward-leaning offer of peace put 
forward by President Ghani in February.
    That peace offer, which was unconditional without any 
preconditions attached to it and included the offer of 
considering constitutional amendments to ensure that the 
Taliban's views were better reflected in the institutions and 
structure of the Government of Afghanistan, that offer has been 
endorsed by the international community.
    And so our strategy right now I think has to be focused on 
increasing the pressure that the Taliban feel to take up that 
offer of negotiation.
    Chairman Royce. And one of the difficulties in all of this, 
in getting an organization--a terrorist organization like that 
to the table is the financing for that organization that makes 
cash ready at hand every time they are moving narcotics.
    I guess one of the great frustrations is for the last 15 
years the U.S. Government has spent $8 billion focused on 
trying to shut down that and today it is still the biggest cash 
crop in Afghanistan.
    What, in theory, could be done to try to diminish that 
narcotics trade and all the illegality that that drives as well 
as the support for the Taliban from a financial standpoint?
    Ambassador Wells. I agree. The narcotics, we assess, 
account for about 60 percent of the Taliban budget but, more 
than that, they fuel a criminal network and eat away at the 
institutions of state through the corruption that they also 
cause.
    What we have done, partly, it's a problem of security. 
Eighty-five percent of opium is grown in areas that are 
controlled or contested by the Taliban.
    So a key element in combating the Taliban finances is 
continuing to improve on the battlefield, which we are starting 
to see a decline in the Taliban's momentum as a result of the 
South Asia strategy and the new authorities and the new 
approach that has been adopted underneath that strategy.
    But we are also building the institutional capacity of the 
Afghan Government to prosecute and go after narco criminals and 
that has been through working with the ministry of counter 
narcotics, building special investigative units and national 
investigation units, working with President Ghani in support of 
a national drug action plan.
    And there have been some successes. Rather than going after 
individual farmers, we focused on drug labs. Last year, we had 
84 joint raids. We interdicted about $360 million worth of 
drugs.
    There is now a counter narcotics justice center which is 
prosecuting these narcotics cases. They have a 99 percent 
conviction record.
    So security is a key part. The institutional capacity is 
important and as is the fact that over the last 16 years we 
have built up a cadre of Afghans so that the responsibility for 
undertaking these actions now resides in these Afghan 
institutions.
    Chairman Royce. But one of the other things that has to be 
a prerequisite here is within the Government of Afghanistan 
that government has to credibly combat corruption, and that has 
been a longstanding problem.
    We have got our Special Investigator General for 
Afghanistan Reconstruction where we spend $55 million per year 
just to make sure our funds aren't misused, and I would--my 
time has expired.
    I am going to go to Mr. Engel. But I would suggest that 
tripling down in terms of the pressure we apply on the 
government there to have transparency and to end those 
practices is the only sure way to rally confidence on the part 
of the Afghan population and international community.
    We go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Thank you, Ambassador. Let me say this. I am glad that you 
support negotiations with the Taliban.
    But as far as I am concerned, your support only adds to the 
mixed signals we are hearing from the administration. So when 
you and Secretary Pompeo and General Miller say that we should 
negotiate, I am not sure if you're speaking for yourselves or 
for the administration because, frankly, the White House hasn't 
been so clear.
    The way I see it, if we can talk to Kim Jong-un, certainly, 
we can talk to the Taliban, and we know the Taliban is 
interested in direct talks with the U.S.
    So why won't the administration accept the offer, if only 
as a bridge to broader talks that would eventually include the 
Afghan Government?
    Ambassador Wells. Thank you, sir.
    The South Asia strategy is premised on achieving a pathway 
to a dignified political settlement. I mean, that's victory 
under the South Asia strategy, and we have worked 
diplomatically in support of the military campaign to build an 
international consensus behind a peace proposal that has been 
put forward by President Ghani and have undertaken various 
lines of effort to put pressure on the Taliban to bring them to 
the table.
    The Taliban have had a de facto office for many years in 
Doha and there has been no lack of talking--of other countries 
talking, of track two talking, of the Taliban hearing from the 
international community and from the Afghan Government--the 
sincere desire to begin a negotiated political process.
    And so the offer is on the table. I think we have been very 
clear about how we see ourselves playing a role in a 
negotiation, both as participants and supporting the process.
    We are a party to this conflict. But the Taliban leadership 
has to understand that the very nature of a peace settlement, 
when you talk about forms of governance, the rights of 
individuals under the constitution, prisoner releases, 
confidence-building measures--these are sovereign issues. These 
are issues that have to be negotiated with Afghans and not over 
the heads of Afghans.
    So we will play our role. But the Taliban, if we recognize 
them as part of the legitimate political fabric of Afghanistan, 
they have to recognize that the Afghan Government and the many 
communities of Afghanistan are also part of that legitimate 
fabric--political fabric of Afghanistan.
    Mr. Engel. Let me ask you this question. In your testimony, 
you state that we have a conditions-based strategy in South 
Asia. But those conditions, however, have never been spelled 
out.
    So what conditions are you referring to specifically? If 
you could list them, I'd be grateful.
    Ambassador Wells. Again, the conditions that we are seeking 
to achieve in Afghanistan are cessation of violence, a 
rejection of terrorism, and respect for the constitution and 
this is all under the umbrella of not allowing Afghanistan to 
ever again become a safe haven for terrorists that are planning 
to attack the United States or its allies.
    I think what's significant in those conditions is that they 
are not preconditions. We have not sought to impose any 
obstacles to the beginning of a political negotiation between 
the Taliban and Afghan Government.
    What we want to see is what comes out of that process.
    Mr. Engel. All right. Thank you.
    And let me ask you this. We have 40 countries contributing 
troops to the NATO support mission in Afghanistan, and the 
operation remains one of the most enduring examples of how we 
can work with our allies. Germany is the second largest troop 
contributor, after the United States.
    The President seems to indicate that he doesn't agree with 
or understand the values of alliances or multilateral 
partnerships such as how the NATO mission in Afghanistan 
continues to serve the interests of the United States.
    So I am concerned about the repeated remarks by the 
President denigrating the NATO alliance. So I want to just ask 
you a simple question.
    Do you agree that the U.S. is best served by continuing to 
work with allies and partners around the world? Obviously, the 
answer would be yes. But I'd like to hear that.
    As the President continues to attack the very countries 
fighting with us in Afghanistan--fighting on our side, how 
strained cooperation with our allies made it harder to 
implement our South Asia strategy?
    Ambassador Wells. Having a united international force and 
diplomatic effort is essential the campaign to stabilize 
Afghanistan and we are deeply grateful for the support of our 
NATO allies and our partners in the Resolute Support mission.
    I think you see it in the--what we have been able to do is 
to spread the burden, which is a key goal of the administration 
in order to ensure that we are all playing a part and playing a 
fair part in the contributions to Afghanistan's stability and I 
think it's a telling statistic that since 2012 our contribution 
to civilian assistance has gone from 50 percent to 25 percent, 
and I think we want to continue in that direction to make sure 
that we and our partners are all pulling in this same direction 
with the same intensity.
    Mr. Engel. My time is up. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We go to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you, Ranking Member.
    And it's a pleasure to see you again, Ambassador Wells. 
When the President first announced our new strategy in 
Afghanistan last year, the administration told Congress that it 
would seek a coordinated effort to get the Taliban to the 
table, as we have been discussing, using layers of diplomatic 
efforts, and this, we were told, left open the possibility of 
including Russia and Iran.
    If you could elaborate on what extent would you say that 
Russia and Iran are supporting the Taliban and, if they are, 
how does that impact our layered diplomatic approach.
    And I also wanted to follow up on Pakistan. I know that the 
administration suspended military aid to Pakistan. It was part 
of our strategy to get Pakistan to change how it does business 
when it comes to the Taliban and providing safe harbors, and 
you testified that Pakistan was on notice that we expect its 
unequivocal cooperation ending sanctuaries. But also, we 
haven't really seen Pakistan do the sustained or decisive steps 
that we would have expected when this new strategy was 
announced.
    Do you have any evidence that Pakistan has taken any steps 
to cut off the flow of arms, of fighters, or support for the 
Taliban and have we, in the U.S., allowed for any waivers or 
made any exceptions to military assistance to Pakistan since 
the suspension of the aid was announced?
    Thank you, Ambassador. Thank you, Mr. Chairman.
    Ambassador Wells. Thank you.
    We are concerned when we see reports of countries that are 
seeking to hedge their bets in Afghanistan by--typically by 
viewing the Taliban as a legitimate force in fighting ISIS 
Khorasan.
    Our strong view is that the only way to defeat terrorism 
and to bring peace to Afghanistan is to strengthen the Afghan 
Government and strengthen the government's ability to fight 
terrorists.
    That said, both countries like Russia and Iran do have an 
important role to play in the future stabilization of 
Afghanistan.
    Afghanistan's neighbors are going to have to support any 
peace process that emerges between the Afghan Government and 
the Taliban and that's why we worked very hard in a variety of 
diplomatic formats to ensure that the region is part of this 
process, informed by the process, and is informed by the 
principles of peace that have been put forward by President 
Ghani.
    Next week I'll be going to an international contact group 
meeting of over 30 countries that will be gathering, including 
Russia and Iran, to reinforce or support for the efforts of 
President Ghani and our support for peace in the region and we 
will continue those diplomatic efforts.
    Pakistan has a particularly crucial role to play. As 
General Votel testified, without Pakistan's active support it's 
going to be much more challenging to achieve our objectives 
under the South Asia strategy.
    We would like to see Pakistan arrest, expel, or bring to 
the negotiating table Taliban leadership and to date, while we 
have seen some positive steps, our assessment has been that we 
have not seen the sustained and decisive actions that are 
really required to ensure that the Taliban take this peace 
process seriously. That----
    Ms. Ros-Lehtinen. Thank you.
    And then one little nugget, just to leave you with that--
the Kabul compact, and President Ghani had said they were going 
to take a lot of steps for reform.
    They announced 100 initiatives, and I hope that in the 
question and answer you can give us an update on--I haven't 
heard too much about the reforms.
    And we have got a minute--maybe you could tell us what 
benchmarks does the President have and how do we tend to use 
those as commitments for preconditions, et cetera.
    Ambassador Wells. We have--the Afghan Government, on its 
own volition, established the Afghanistan compact. It has over 
200 metrics to measure a performance--reform, anti-corruption 
in the areas of security, governance, economic performance, and 
then reconciliation efforts.
    We meet quarterly with President Ghani to review progress 
under those metrics. Again, this is an Afghan Government 
initiative and not something that we have put forward as part 
of our aid conditionality.
    Ms. Ros-Lehtinen. Do you think that they are making 
progress?
    Ambassador Wells. We do, and we see serious efforts. There 
are areas where we make progress faster and areas where, when 
there is less progress, we have been able to have the kinds of 
top level political conversations to keep the momentum behind 
reform.
    Chairman Royce. Thank you.
    We go now to Mr. Brad Sherman of California.
    Mr. Sherman. Good to see you, Acting Assistant Secretary 
and Ambassador, which raises the question--when is the 
administration going to appoint a permanent assistant secretary 
for South and Central Asia? Has the administration indicated 
that?
    Ambassador Wells. Secretary Pompeo, when he testified, 
indicated that he would be moving soon to make appointments, 
including for the assistant secretary.
    Mr. Sherman. Did he criticize or apologize for the fact 
that throughout the tenure of his predecessor no one had been 
nominated to a position as important as the one you're acting 
in?
    Ambassador Wells. I am very grateful that both under 
Secretary Tillerson and Secretary Pompeo I've been given full 
writ to undertake this job.
    Mr. Sherman. But still, the word acting in front of your 
title undercuts what you do--the uncertainty of whether you'll 
keep doing it. If the administration had had the wisdom to 
simply give you the position I wouldn't be asking this 
question.
    It's my understanding that some 30 personnel positions were 
cut between the South Central Asia office and the Special 
Representative for Afghanistan and Pakistan.
    Is there any chance that those cuts are going to be 
restored?
    Ambassador Wells. Sir, some of----
    Mr. Sherman. And are they needed?
    Ambassador Wells. Right. Sir, some of the cuts were the 
result of two bureaus being merged and, you know, when you 
overlap two bureaus some of the administrative staff, the front 
office staff, and so we were able to take advantage of 
efficiencies from the reintegration of the two bureaus.
    We have decided to expand our staff who are focused on 
reconciliation. That team is being built up both here in the 
State Department as well as in our Embassy in Kabul.
    But I would also note that we benefit from what is very 
much a whole of government approach--that the experts that we 
have, whether in DoD or the intelligence community, all are 
part of this one team as we look for ways to move the peace 
process forward.
    Mr. Sherman. Does the United States and does India and does 
Pakistan recognize the Durand line--the border between 
Afghanistan and Pakistan?
    Ambassador Wells. Afghanistan has not recognized----
    Mr. Sherman. I know Afghanistan hasn't.
    Ambassador Wells. Right.
    Mr. Sherman. But what about Pakistan, India, and the United 
States? Do those three countries recognize the line or you 
don't know?
    Ambassador Wells. Right. The Durand line serves as an 
international boundary.
    Mr. Sherman. And----
    Ambassador Wells. We recognize the sensitivities associated 
with it.
    Mr. Sherman. But is it the U.S. position that that is the 
international boundary?
    Ambassador Wells. That is how we approach the Durand line, 
yes.
    Mr. Sherman. But is there equivocation there or is that----
    Ambassador Wells. No.
    Mr. Sherman. Okay. So it's just as much an international 
border as----
    Ambassador Wells. But we believe that the border management 
is going to be best done when you have the countries working 
together and so----
    Mr. Sherman. What about India? Does India recognize that as 
the international border?
    Ambassador Wells. I actually don't know India's position, 
sir.
    Mr. Sherman. I hope you respond to that, because India is a 
poor country. It does provide foreign aid to a limited degree. 
There are crying needs for aid to countries that are even 
closer to India than Afghanistan is, namely, Myanmar, Burma, 
Bhutan, and Sri Lanka. But India is instead providing 
substantial aid and has a substantial involvement in 
Afghanistan.
    Is there any harm--what degree of harm does that cause by 
making the Pakistanis nervous and causing them to support the 
wrong elements in Afghanistan or at least not to help us go 
after the wrong elements? To what extent is India's generosity 
to the people of Afghanistan causing a problem with Pakistan?
    Ambassador Wells. First, we see India's support to 
Afghanistan as very important. They are a responsible aid 
provider.
    They have pledged $3 billion in assistance through 2020. 
The Afghan Government welcomes that assistance and the Afghan 
Government welcomes and seeks a strategic partnership with 
India.
    When it comes to Pakistan's tensions over and its concerns 
over encirclement or----
    Mr. Sherman. So let me interrupt you. Afghanistan wants a 
strategic partnership with India.
    Ambassador Wells. Yes.
    Mr. Sherman. Afghanistan claims a huge chunk of Pakistani 
territory and we are surprised that Pakistan, although you 
won't admit it and they won't admit it, is working against our 
interests for a strong united Afghanistan, which longs to be an 
effective strategic partner of India.
    Ambassador Wells. We have welcomed the recent Afghan-
Pakistan discussions to deal with these issues that you raise, 
including management of the border, and there is been an 
agreement recently to establish liaison officers and to be able 
to collaborate more effectively on the border. We are 
supporting that----
    Mr. Sherman. I am sure there is some collaboration. There 
is also substantial support for Pakistan from bad elements in 
Afghanistan.
    I'll just make one final comment and that is you have a 
very tough job. The only tougher job would be to come to any of 
our districts and explain why we haven't destroyed the poppy 
fields, because Afghanistan is a battlefield but so are the 
towns and cities of the country and many of our neighborhoods.
    I yield back.
    Chairman Royce. Thank you, Mr. Sherman.
    We go to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you, Mr. Chairman. Thank you for convening 
this very important and timely hearing.
    Ambassador Wells, thank you for your leadership and for 
your sober but, I think, cautiously optimistic take on the 
prospects for peace. It is encouraging but, of course, the way 
forward is strewn with obstacles and you know it better than 
anyone.
    But thank you for giving us that insight that there was an 
exhilarating first taste of what peace might look like. I think 
that that, again, offers more encouragement that this can 
happen.
    I would like to ask you, if I could, discerning the intent 
of the Taliban leadership. Taliban is, as you know, as we all 
know, within the last few hours attacked a base--a Afghan base 
in Badghis and killed 30 Afghan soldiers, according to Reuters. 
Perhaps eight or more were wounded.
    And there is always a concern that a hostile power will use 
the prospects of peace or the facade, the cover of peace, as 
cover to accelerate their violence and I wonder how that has 
factored into the thinking, yours as well as the 
administration.
    Secondly, on aid conditionality, which you mentioned a 
moment ago, entities of the Government of Afghanistan, 
particularly the Afghan local police and Afghan national 
police, which are on the front lines of combatting the Taliban, 
as we all know, are known to have recruited children to serve 
as combatants or as servants, including as sex slaves.
    In fact, a 10-year-old boy was assassinated in February 
2016 by the Taliban after he had been publicly honored by the 
Afghan local police forces for his assistance in combat 
operations against the Taliban.
    As you know, the Child Soldiers Prevention Act of 2008 
requires, subject to an national interest waiver, the United 
States will cease military aid where the government is allowing 
children to be trafficked in its forces as child soldiers.
    I wonder if you could convey to us how seriously we are 
raising that issue with the Afghan Government and what steps, 
if any, did the Government of Afghanistan take in 2017 and into 
2018 to cease using child soldiers in its forces?
    Ambassador Wells. Thank you.
    I think when it comes to the Taliban resuming violence 
after the cease fire, this is going to be a critical time, I 
think, to underscore the dispute within the Muslim world over 
the raison d'etre--the reason why they are fighting this war. 
And we have seen some very important developments.
    Pakistan issued a fatwa. Over 1,000 members of their ulama, 
the religious establishment, condemning suicide bombing, 
condemning some of the tactics of the Taliban.
    The Indonesians gathered Afghan and Pakistani ulama and 
reiterated this condemnation and called for peace and 
reconciliation. The Afghan fatwa--over 2,700 gathered and 
signed a fatwa in favor of peace, against suicide bombing, in 
favor of peace negotiations.
    The OIC is gathering in the next 2 weeks to also have a 
conversation. I mean, this is, I think, a real moment of 
changing of opinion in the Islamic world about what is going on 
in Afghanistan and taking greater ownership and trying to frame 
that this is the time to negotiate for the Taliban with an 
Islamic Government of Afghanistan.
    And so we will continue to encourage these developments and 
to put as much pressure as we can on the Taliban through all of 
the various lines of effort that now is a moment to seize the 
opportunity of.
    At the same time, you're so right that the reforms that the 
government take are critical. So, when it comes to, for 
instance, children sex slaves, we have worked with the Afghan 
Government over many years. That practice is now criminalized 
in the penal code and in other regulatory measures.
    We do extensive Leahy vetting for all of our military 
assistance and who we work with in Afghanistan to ensure that 
we are not supporting Afghan officers who are engaged in that 
behavior.
    We have extensive human rights training that we provide, 
and through USAID we have done vocational rehabilitation of 
6,000 of these victims of this sex slave practice.
    On child soldiers, same, I think, commitment by the Afghan 
Government. It's been criminalized. There are active measures 
to ensure that children are not recruited including 22 centers 
around the country that interdict when they see efforts for 
children to be inducted into the service.
    And so this is very much on our agenda, sir.
    Mr. Smith. Ambassador Wells, thank you very much.
    Chairman Royce. Albio Sires of New Jersey.
    Mr. Sires. Ambassador Wells, thank you for coming. We 
appreciate having you here today.
    Ambassador, I just have an observation, then I am going to 
ask you a question.
    I am very hopeful that we do have a prospect for peace in 
Afghanistan. But I look at the Colombia peace pact and I see 
what it's done to the drug growth in that country, and I just 
want to make sure that when we talk about peace, we do take in 
consideration that this is a very lucrative business in 
Afghanistan and I don't know if we want to continue just, 
basically, saying it's okay for them to keep growing this--the 
opium growth.
    So we have seen the growth that has been in Colombia and I 
hope if we do have a peace in Afghanistan that we focus on that 
because I would hate to have peace and have such a growth in 
the opium drug growing.
    My question is, we have a growing concern that Afghan 
politics and society is becoming increasingly fragmented 
alongside ethnic and ideological lines.
    What impact do you think that's going to have for political 
stability in that country?
    Ambassador Wells. Thank you.
    On the issue of narcotics, I agree, again, this is not just 
an issue that involves the Taliban. This is an issue that is a 
perversion throughout all of Afghan society--the criminal 
networks and their ability to corrupt the institutions of the 
state and society, and it's something that we take very 
seriously.
    We are limited right now because of the security situation 
and where the opium is grown. But to go back to a point that 
was raised earlier, rather than undertake eradication, which is 
not supported by the Afghan Government at this stage, the 
effort is to go the step up through the drug labs, through 
targeting of the drug networks to get to that level of 
individuals who are benefitting more and who are a greater part 
of the drug trade.
    So the efforts continue. The institutional development of 
the Afghan Government to respond to the narcotics threat and 
the criminal networks behind them is very much an investment 
that we have made and will continue to make.
    But I agree, we learn from the example of the Colombia 
peace process and how hard it is. On----
    Mr. Sires. Well, I just make--I want to--just want to make 
sure they don't look the other way for the sake of peace.
    Ambassador Wells. No, absolutely, sir.
    And then on the issue of Afghan society being fragmented, I 
think you can look at it two ways. I mean, first, the Eid last 
weekend showed the incredibly unity that still exists in 
Afghanistan.
    The fact that combatants and pro-government supporters 
gathered together, tens of thousands of people praying together 
in places like Kandahar is the heartland of the Taliban and the 
conflict I think gives hope that the basic sinews of Afghan 
nationalism and nationhood are there.
    But yes, we have seen greater ethnic polarization over the 
last couple of years. The government of national unity has had 
to deal with issues of inclusivity, of trying to ensure that 
all facets of Afghan society are represented in government and 
I think there is going to be a great deal of importance 
attached to the credibility and the conduct of the elections 
that are coming up.
    And elections have always been a sensitive event in 
Afghanistan and it's one that we are supporting very carefully 
and supporting the independent election commission to ensure 
that as much can be done to reduce the chances for industrial 
scale corruption and to increase the chances that voters across 
Afghanistan and voters both female and male will be able to 
participate.
    Mr. Sires. Are the Russians being obstructionist? I read an 
article where they are funneling arms into the Taliban.
    Ambassador Wells. The Russians have been very unhelpful in 
falsely accusing the United States and undertaking propaganda 
campaigns to suggest that somehow we have introduced ISIS 
Khorasan into Afghanistan and seek to artificially keep the 
terrorist battles going.
    And so we believe that Russia has an important role to play 
in being a supporter of peace in Afghanistan. They certainly 
benefit from a stable Afghanistan.
    Mr. Sires. Are they funneling arms to the Taliban?
    Ambassador Wells. We have seen--Russia denies that but, 
certainly, we see Russia adopting a posture that the Taliban 
are a legitimate bulwark against ISIS and we do not buy that as 
a justification of engagement with the Taliban.
    Mr. Sires. Thank you very much, Ambassador.
    Chairman Royce. Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Well, thank you very much, and I am sorry 
that I don't join in your optimism, and watching people pray 
together is not--I mean, the next thing we know--we could say, 
well, the next step would be sitting around a campfire singing 
kumbaya, as it that has anything to do with creating peace in 
this war-torn country.
    Afghanistan is a society that is based on tribalism and 
ethnicity, and our greatest and what has been reconfirmed 
today, Mr. Chairman, is that we continue down a road of trying 
to remake Afghanistan into a democratic system, and that's why 
we are failing. That's why that will not succeed because it is 
totally inconsistent with their national character.
    And we did this from the very beginning, over my objection 
many times, we created the most centralized constitution of 
almost any country in the world and over a people who are the 
most decentralized people in the world, and then we are 
surprised when it doesn't work and people are upset and join 
military units.
    Let me ask you, are the Pashtuns still the major element if 
not the dominant element of the Taliban?
    Ambassador Wells. Yes.
    Mr. Rohrabacher. Okay. And so now we have the Pashtuns and 
people who understand that area--that half the Pashtuns are in 
Afghanistan and half of them are in Pakistan, and let me just 
say that we have to understand that and deal with that or we 
are never going to have peace.
    We made a mistake in the beginning, trying to, as I say, 
recreate this centralized government in Kabul and then we 
permitted crooks and criminals to take over that government and 
loot the country of billions of dollars and we expect the 
Afghans just to say, oh well, now we can have a democratic 
process--look at what it's doing for us.
    Let me just note also, the major opium production areas--
poppies, in that country is in the Pashtun areas, is it not?
    Ambassador Wells. It's dominated in the Pashtun areas.
    Mr. Rohrabacher. Right. And we have done nothing.
    And let me just note, when I say, yes, we have gone through 
a lot of PR type of things that make it look like we are doing 
something.
    If we wanted to eliminate the poppy production in 
Afghanistan, we could do it within a week. We have 
technological capabilities and we have not done that and thus, 
we have thus permitted the Pashtuns--the Taliban--to have a 
major source of billions of dollars of input, which permits 
them to have the bullets and the guns that are necessary to 
have the terrorist organization and the radical Islamic type of 
regime they are trying to build.
    Do you know what the status, for those who are watching or 
reading this? We realize that what really worked in 
Afghanistan--what really worked after 9/11 was when we allied 
ourselves with the anti-Taliban forces that were also basically 
made up of Uzbeks and Tajiks, and the leader of that group was 
General Dostrum.
    For anyone who has seen ``12 Strong,'' he's the man who 
actually organized at our effort to drive the Taliban out of 
power in the first place.
    Where is General Dostrum today?
    Ambassador Wells. Turkey.
    Mr. Rohrabacher. All right. And he is in Turkey because 
there was--there have been major assassination attempts against 
him. Are the assassination attempts against General Dostrum 
motivated by Taliban or by people in the Afghan Government that 
we are supporting?
    Ambassador Wells. My understanding is that General Dostrum 
is in Turkey for health reasons but that when he does return to 
Afghanistan there are legal processes that have been brought 
against him and some of his security officials for the sodomy 
of a political figure that had been in the custody of General 
Dostrum's security forces.
    Mr. Rohrabacher. Right. Yes, you can bet that the people 
hate us and hate the man who helped us drive the Taliban are 
willing to say anything about General Dostrum.
    And yes, he is outside of Afghanistan for health reasons 
because they tried to murder him, and 50 of his bodyguards were 
killed by the time he and 10 others escaped from an ambush that 
was not a Taliban ambush.
    The American people--we are in a murky situation here. The 
Pakistanis, who we have been treating with kid gloves, are, 
clearly, a pro-terrorist element and a pro-Taliban element in 
this whole fight, and until we start realizing this, all these 
things about praying together or all the reforms you're talking 
about and the democratic centralized process in Afghanistan 
will mean nothing and more Americans will die. We can either 
get real or we will lose for good.
    Thank you very much.
    Chairman Royce. Tom Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Thank you, Ambassador, for being here today. I have to 
admit I am very frustrated in this process of trying to 
discover what the civilian strategy of the United States of 
American in Afghanistan is.
    I've only been here for a short time, but I've had the 
opportunity to ask Secretary Tillerson about this. I've had a 
chance to ask Secretary Pompeo. I've spoken to you over the 
telephone. I've asked Secretary Mattis. I've asked USAID.
    What is our civilian strategy? We hear about the whole of 
government approach, but I can't get the details of what it is 
we are actually doing.
    So you referenced earlier about the 25 percent contribution 
toward the civilian efforts that are being made by the United 
States Government and I want to determine, first, are you 
referring to the $3.7 billion a year that was agreed to at the 
Brussels Conference of which America is putting up $1 billion a 
year of that money?
    Ambassador Wells. Yes.
    Mr. Suozzi. Okay. So that was done in 2016 under the 
previous administration. So that commitment is the commitment 
that still stands from the Brussels Conference in October 2016?
    Ambassador Wells. Our aid levels are lower than that $1 
billion figure but, in general, that is guiding the approach by 
us and the international community.
    Mr. Suozzi. So but is the number $3.7 billion a year that's 
being spent by the international community or is it lower than 
that number?
    Ambassador Wells. I would have to get a breakdown of what 
has actually come through in terms of----
    Mr. Suozzi. Okay. Well, that's what I've been trying to get 
for a long time. I would like that breakdown of what the 
international commitment for civilian efforts is, specifically, 
what the number is, because I had to get this from outside of 
the U.S. Government to determine what this number was.
    I'd also like to know--and I'll send you a follow-up letter 
if necessary--I'd like to know what are we spending our money 
on and what is the international community spending its money 
on.
    So it's $3.7 billion a year, but what are the specific 
programs that it's being spent on? We heard a lot about poppy 
eradication. We have heard about a whole bunch of different 
things.
    I'd like to know specifically how much money is being spent 
on each of the efforts by the Department of State, by USAID, by 
the DOJ, by the DEA, specifically, and I've been asking for 
this for some time. That's why I am frustrated.
    I want to know specifically what are we spending our money 
on and to what effort, because I don't feel like we have a 
comprehensive strategy.
    I feel like we have a list of a lot of good work that's 
being done by a lot of good people that are working very hard. 
But I don't see it as being a strategy and I think that's a big 
contribution. I think the military strategy is clear and we are 
clearing and holding property.
    But in our efforts to transition and to redevelop the areas 
I don't know what that effort is.
    So I am very frustrated, because I've asked this question 
many times, and I'd like to get specifics about how much money 
we are spending and what programs we are spending that money 
on.
    Could you, off the top of your head today, give me a rough 
idea of the billion dollars a year, approximately--or if it's a 
different number--what percentages are being spent on different 
efforts?
    Like, how much is being spent on infrastructure, as a 
percentage? How much is being spent on poppy eradication? How 
much is being spent on schools or on sewers or on teaching 
prosecutors to be prosecutors?
    Can you give us a rough idea of how that money is being 
spent?
    Ambassador Wells. I am happy to provide and talk to my 
USAID colleagues to provide a more detailed letter to you with 
a breakdown of assistance.
    As I am sure you heard from USAID, the overall principles 
that drive the new development strategy are trying to improve 
the government responsiveness to citizens to increase a private 
sector-led and export-led growth and to consolidate the social 
gains in health education and women's empowerment.
    Outside of USAID we have INCLE funds which are providing 
the training for the counter narcotics and the law enforcement 
capacity. We have the bureau of counterterrorism providing 
specific assistance programs including to enhance the security 
of Kabul and other urban areas.
    But it is a complicated topic. The numbers are confusing, 
and we can provide a very detailed letter for you with that 
breakdown, sir.
    Mr. Suozzi. Okay. That would be very helpful, because even 
the things that you just told me now--out of the billion 
dollars, how much is being spent on poppy eradication?
    Ambassador Wells. First off, I want to clarify that it is 
not $1 billion. And so when we talk about Afghanistan for 2017, 
the numbers that I have that are actual, the INCLE moneys were 
about $160 million.
    Mr. Suozzi. So if it's not $1 billion, could you give me a 
rough idea of what the number is overall?
    Ambassador Wells. The 2019 request that we have is $632 
million.
    Mr. Suozzi. And how about the actual for the----
    Ambassador Wells. That is for the billion--it's $160 
million.
    The--I am sorry, the Afghanistan numbers are $632.8 million 
request for 2019.
    Mr. Suozzi. And how about 2018?
    Ambassador Wells. For 2018, it was $782.8 million.
    Mr. Suozzi. Okay. So we made a billion dollar commitment at 
the Brussels Conference in 2016. We went down--I don't know--
you wouldn't happen to have the 2017 number, would you?
    Ambassador Wells. $847.6 million.
    Mr. Suozzi. Okay. So we are spending $45 billion a year on 
military aid, which is not--I am not asking you about that--and 
we have reduced our commitment from $1 billion a year. We are 
now going down to $632 million a year on civilian aid.
    Ambassador Wells. Yes.
    Mr. Suozzi. Okay.
    Chairman Royce. We go to Mr. Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you, Ambassador. Lieutenant General Austin Miller 
said yesterday that the biggest problem in Afghanistan are the 
sanctuaries in Pakistan to shelter terrorists. Would you agree 
with that assessment?
    Ambassador Wells. I agree with the assessment that without 
Pakistan's support it will be very challenging to achieve our 
goals in Afghanistan and that Pakistan continues--sanctuaries 
continue to exist in Pakistan for Taliban Haqqani network 
leaders and fighters.
    Mr. Poe. So, over the years, we have had our troops down 
there in Pakistan. I've been down there on the border, as many 
other Members of Congress have, and they are doing the best job 
they can.
    But during the day, the Talibanis come across the border, 
commit mischief, then run back into Pakistan and hide. The 
Pakistan Government has hidden terrorist leaders in the past.
    They are a sanctuary for terrorist leaders, and somehow we 
still give Pakistan money with the promise that they will do 
better. They sweet talk us and say oh, give us more American 
aid--we will go after the terrorists. We do that every year.
    We continue to do it. We have done it for I don't know how 
many years--17--and yet nothing changes. They harbor 
terrorists. They fight terrorists in their country but they pay 
for terrorists to go across the border into Afghanistan that 
kills Americans and our allies and Afghans.
    I think it is nonsense that we continue to send money to 
Pakistan with the promise they will do better. That's just my 
opinion.
    How much money have we spent--taxpayer money--over the last 
17 years in Afghanistan?
    Ambassador Wells. On the civilian side, we have spent 
approximately $29 billion.
    Mr. Poe. How about the military side?
    Ambassador Wells. I don't have the figures for that.
    Mr. Poe. Do you have any estimate?
    Ambassador Wells. I don't.
    Mr. Poe. So it's $29 billion on the civilian side and who 
knows how much on the military side.
    Secretary Mattis stated I think in October of last year 
that the United States has planned--will stay, if necessary, in 
Afghanistan indefinitely.
    Now, to me, that is problematic. No end in sight. We have 
been there 17 years--no end in sight. You know, history says 
the War of the Roses lasted 32 years with, basically, no 
resolution.
    The 100-Year War lasted 116 years, between France and 
England--indefinitely. I find that very alarming that there is 
no end in sight or that we are prepared to stay there for as 
long as possible and that the situation hasn't changed--
continually, the United States sends money to Afghanistan.
    Someone has said that Afghanistan is where empires go to 
die. I don't know if that's true or not. But nobody ever won in 
Pakistan--excuse me, in Afghanistan.
    So are we, the United States, in the nation building 
business of Afghanistan? Are we building Afghanistan into a new 
nation, as Mr. Rohrabacher said, in our image--a democracy?
    Are we in the nation building business with that $29 
billion we spent on civilian programs?
    Ambassador Wells. President Trump has been very clear that 
we are not in the nation building business and I think rather 
than terming the war an indefinite war, what the administration 
has sought to counter was the idea of having a troop surge and 
announcing the departure at the same time, allowing the Taliban 
to wait us out.
    And so we are no longer giving the Taliban the luxury of 
knowing when the United States plans to leave. Instead, the 
United States will leave when we are assured that Afghanistan 
is not again is not again going to become a safe haven for 
terrorists plotting against us. We can't--we can't----
    Mr. Poe. And that may be indefinitely. I only have a few 
seconds. That may be indefinite because we don't know that 
that's happening. Has the situation changed in the last 17 
years?
    Aren't we in the same place that we were 17 years ago? We 
have Pakistan still supporting terrorists. There are 
terrorists. The government is shaky in Afghanistan. Aren't we 
in the same situation? But yet, we say--and I am not arguing 
with the President's policy--we say we will be there 
indefinitely if need be to make sure that we obtain victory.
    Ambassador Wells. The situation has changed because the 
Afghan national security forces are the lead. We are not. The 
situation has changed because we are putting unprecedented 
pressure on Pakistan, including the suspension of $1.6 billion 
in military assistance and $900 million in coalition support 
funds.
    And so the administration's strategy is being much more 
proactive in trying to put pressure on those countries and 
actors that we think can make peace possible.
    Mr. Poe. I am out of time. I think we should cut off all 
aid to Pakistan until they come to the table and there is proof 
that they are not harboring terrorists in their own country and 
sending them across the border.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Judge.
    Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Welcome, Ambassador Wells. It's been more than a decade and 
a half since we entered Afghanistan and a military solution is 
becoming more and more unlikely as violence continues to wage.
    And we haven't heard enough about the administration's 
long-term plans outside of the addition of more troops. Many 
have pushed for dialogue and negotiations with the Taliban.
    The Taliban today killed 30 Afghan soldiers. The Taliban 
entering a political playing field and renouncing violence is 
absolutely an appealing image. But dialogue with them is also 
an incredibly dangerous endeavor, I think.
    After 17 years of our military combatting the Taliban and 
facing casualties and destruction, the Taliban continues to 
engage in terror tactics targeting civilians, the Afghan 
Government, and U.S. forces, and then the introduction of ISIS-
aligned groups has further complicated the field.
    I support integrating moderates defecting from the Taliban 
who aren't committed to the Taliban's radical and evil 
ideology, and absorbing them in a responsible and safe way is 
an important step if we can do it.
    The recent truce had some promise. But now the Taliban has 
resumed attacks and further ethnic, tribal, and religious 
groups who were targets of the Taliban's cruelty and brutality 
have vested themselves in Kabul's government and the promise of 
a better future, and the Afghan Government hasn't been hardened 
to a point where its institutions--its reach, and, I think it's 
clear, its stability are firm enough to support negotiations 
from a position of power.
    So the main question I have is given, for example, the 
Taliban's efforts decades past when they went house to house to 
identify and kill Hazaras, thousands of them being killed, what 
reaction do we expect from religious, ethnic, or tribal groups 
in the Afghan Government who have suffered so mightily at the 
hands of the Taliban if negotiations with the Taliban are 
entered into?
    Ambassador Wells. Again, we have--we are letting the Afghan 
Government take the lead in putting forward a peace proposal, 
which has been, by everyone's account, both visionary and 
forward leaning.
    And so President Ghani has judged that the Afghan people 
continue to seek peace. That's supported by all the polling 
data that we see which, regardless of the incredible violence--
and you've only mentioned one horrible chapter of violence in 
Afghanistan.
    But regardless of the horrible violence that Afghans have 
seen, they remain committed to peace, and the celebrations that 
took place during the Eid are, I think, are a manifestation of 
what is a broad nationwide desire for peace.
    The Higher Peace Council in Afghanistan is a multi-ethnic 
body. Peace cannot be made between Pashtuns. Peace has to 
include all of the ethnic and social groups of Afghanistan and, 
I would argue, it has to include the women of Afghanistan.
    So, any peace process is going to have to be broad based.
    Mr. Deutch. I appreciate that. Do you--and I understand the 
way Ghani views it and I understand what we have seen during 
Eid.
    But are you confident--is our Government confident that the 
government in Afghanistan is strong enough to be able to do 
this--strong enough to be able, specifically with respect to 
the Taliban, to include them in negotiations.
    Ambassador Wells. Again, I think, because we are not trying 
to put up hurdles to peace negotiations, where the United 
States' interests lie is in what comes out of a negotiation 
process, and so we can--we can live with negotiations that 
produce the end to violence and the cessation of ties to 
terrorists and respect for a constitution--a constitution that 
can be amended, per President Ghani's offer.
    And so rather than prejudge whether it can happen or not, 
we are ready to support the process, facilitate it. We want 
there to be a negotiated and dignified political solution.
    If the Taliban are unprepared and unwilling to make peace, 
we have made it very clear that we will deny them a military 
victory.
    Mr. Deutch. And in--as it relates to providing that 
support, what are the range of diplomatic tools that we have to 
support that process and are we utilizing all of them?
    Ambassador Wells. Yes, I think we are utilizing many 
different levers to support efforts to create a diplomatic 
process or a negotiated political process.
    And, of course, the military pressure is one portion of it. 
The pressure on Pakistan is important--the pressure we are 
bringing to bear against Taliban financing.
    What we are seeing the Government of Afghanistan do to 
mobilize religious messaging against the very basis or 
justification for the Taliban's actions, the international 
consensus we have built diplomatically and that involves 
bilateral engagements and multilateral engagements and, of 
course, always willing to see whether other groups within 
Afghanistan are prepared to create separate peace.
    And so all of these are designed to raise the stakes for 
the Taliban to create incentives for them to take up what we 
think is both a fair offer and an offer that can produce a 
Taliban that plays a part in the political life is an important 
part of the political life of Afghanistan.
    Mr. Deutch. Ambassador Wells, I appreciate you being here 
and I am sincerely grateful for the commitment that you make to 
this important work. Thanks.
    Ambassador Wells. Thank you.
    Chairman Royce. Ann Wagner of Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, for organizing this 
hearing, and thank you, Ambassador Wells, for your service.
    I appreciate the opportunity to evaluate the new direction 
this administration has taken in resolving America's longest 
war.
    Pakistan has a clear interest in preventing the cessation 
of hostilities in Afghanistan but has made itself central to 
American operations. In the past, Pakistan has wagered, 
correctly, that the United States would rather accept 
Pakistan's incomplete support than lose it entirely.
    Ambassador Wells, I believe the President was correct to 
demand full cooperation from Pakistan last August. How well is 
the administration communicating its resolve to hold Pakistan 
accountable for its support of terrorism?
    Ambassador Wells. I think there have been very not only 
direct talks with the senior leadership of Pakistan but action 
under the Trump--under President Trump's administration we have 
taken the unprecedented step of suspending military assistance 
and coalition support funds as a result of our assessment that 
Pakistan had not been undertaking the decisive and sustained 
steps that are necessary.
    I think we agree that Pakistan has a lot to gain by peace 
in Afghanistan, and so the challenge is how do you secure 
Pakistan's support for a negotiated political process rather 
than its tolerance of proxies.
    And we have heard very positive statements, for instance, 
from the chief of army staff of Pakistan who says that there 
can be no room for nonstate actors--that Pakistan can't be 
normal state as long as there are extremist groups on its soil.
    But what we need to see are actions that are taken to 
ensure that that is the case, and we do not deny that Pakistan 
has fought its own heroic battles against terrorism. It 
defeated in large part the Pakistani Taliban. It's just now 
reintegrated the federally administrated tribal areas into the 
governing system of Pakistan.
    But we treat all terrorist enemies of Pakistan as our 
terrorist enemies and we expect that Pakistan should do the 
same.
    Mrs. Wagner. Well, I hope we continue to withhold that 
funding until we see measurable action, Ambassador.
    How is the administration building relationships with 
Central Asia countries to reduce our dependence on Pakistan?
    Ambassador Wells. We have had excellent relations with the 
Central Asian countries--longstanding efforts to create the 
northern distribution network that helps to support our 
military efforts in Afghanistan.
    We had the visit of Kazakhstan's President, Nazarbayev, in 
December of last year and Uzbekistan's President, Mirziyoyev, 
last month.
    Both leaders are important in not only providing the kind 
of support for the northern distribution network but in 
stitching Afghanistan back into the region.
    And when President Ghani went to Uzbekistan for the first 
time--first time any Afghan leader went to Uzbekistan was in 
December--he said Afghanistan is a Central Asian nation, and so 
through our engagement with the Central Asian states, and we 
engage in a C-5 format with all of the Central Asians--we very 
much are supporting their efforts to proactively increase trade 
with Afghanistan and increase exchanges, give Afghanistan 
options as it builds out its economy and its diplomatic 
relations.
    Mrs. Wagner. How do U.S.-Russia relations affect the 
feasibility of northern supply lines through Central Asia and 
the Caucuses?
    Ambassador Wells. Well, the northern distribution network 
has operated successfully and continues to operate 
successfully. I would just argue, more generally, Russia has 
important interests and concerns in Afghanistan and an 
important role to play in helping to stabilize Afghanistan, and 
we would like to see Russia do more to provide the kind of 
assistance to the Government of Afghanistan so that both 
militarily and diplomatically it can defeat or bring the 
Taliban to the negotiating table.
    Mrs. Wagner. Although India declined to put boots on the 
ground in Afghanistan, it has shown a keen interest in 
strengthening the Afghan Government's capacity. How is the 
administration encouraging deeper Indian involvement, briefly?
    Ambassador Wells. We have worked with India. We do joint 
training programs. USAID--some of its training programs are 
conducted in India. We have a trilateral with Indian officials 
and Afghan officials to coordinate our efforts and make sure 
that we are lashed up in the development approach and 
diplomatic approach.
    And India has play an important role in hosting business 
conferences so that private sector companies interested in 
investing in Afghanistan can use India as a launching pad.
    Mrs. Wagner. Thank you, Ambassador Wells. My time has 
expired.
    I yield back, Mr. Chairman.
    Chairman Royce. I'd just remind the members we are 
expecting votes momentarily. So members don't need to use all 
of their time.
    And we are going to go to Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair, and I won't use all of my 
time.
    How will the October elections influence possible peace 
talks and if elections do not take place will the U.S. position 
that the Taliban should negotiate directly with the Afghan 
Government and not directly with the U.S. change?
    Ambassador Wells. We think it's important that the 
elections take place in a timely and credible way. It sends a 
strong signal about the inclusivity and the strengthening of 
democratic institutions in Afghanistan.
    So our efforts to date are very much focused on helping to 
empower the independent election commission, make sure they 
have the resources and the capacity to undertake what is a 
critical reform this electoral season by having voting be based 
on polling centers so that you stop the industrial level 
stuffing of ballot boxes.
    I think that the Afghan people, as we have seen in both the 
numbers who have registered and the number of candidates who 
have come forward are vested in this democratic process.
    Ms. Kelly. I'll stop so my colleague can get his question 
in.
    Chairman Royce. And we go to Ted Yoho of Florida.
    Mr. Yoho. Thanks to my colleague, Ms. Kelly.
    Thank you, Mr. Chairman.
    Ambassador Wells, thank you for being here. This is just 
one of those things that everybody wants to come to an end. But 
yet, I don't see a clear strategy of how we are going to do 
that.
    Answering Ted Poe's question about the cost of U.S. 
military, since 2001, we have spent $752 billion is the number 
I have--so we are well over $1 trillion--trying to bring peace 
to Afghanistan.
    As Dana Rohrabacher brought up, it's a very tribal and 
separated culture. The Pashtuns--half in Afghanistan, half in 
Pakistan--and they are the major opium areas, and if I 
understand my notes correctly, there is more opium being grown 
in Afghanistan today than there was before we started our war 
on drugs, as is there is more cocaine in Colombia after we 
started the war on drugs and, of course, now Mexico has 72,000 
acres of opium.
    And so it seems like we are going backwards. With the 
amount of money, the time, resources, and the loss--tragic loss 
of life on both our sides and the Afghan, we need a new game 
plan to do this.
    My question to you, is any process you brought up you were 
talking about in Afghanistan must include the Pashtuns, the 
women, and things like that, and I agree. I think those would 
all be good.
    But does the system in Afghanistan allow for that with the 
amount of corruption in the government? What's your thoughts?
    Ambassador Wells. I think the government has been 
organizing itself in preparation for the possibility of peace 
negotiations.
    You have the establishment and the reenergization of a 
Higher Peace Council that has--it's multi-ethnic, it has women 
on it, it's been engaging at provincial levels. It's brought 
together youth. It's brought together religious leaders and 
part of a national conversation about what peace might look 
like.
    You've seen gathering of religious leaders, the 20----
    Mr. Yoho. And I saw that, and I think that's a great thing 
that they all came together and they had those three things 
they denounced.
    Let me ask you this. Do the people in Afghanistan, do they 
believe in a government with a democratic process--are they so 
ingrained into a tribal government--can they even see the 
possibility, or are we talking generations to change that 
situation?
    Ambassador Wells. Well, Afghanistan has had successive 
elections. I am not trying to deny the tribal nature of society 
or the importance of tribal structures or tribal elders.
    But Afghans have demonstrated, by registering to vote, by 
stepping forward as candidates, that they've embraced this 
democratic experience.
    Mr. Yoho. Do they understand, believe, and support the 
constitution in their country? Do they understand that? Because 
French philosopher de Tocqueville, when he came through North 
America in the 1800s, he was astounded by the level of 
understanding that people had of our Constitution, and that has 
led us where we are at because it was from the bottom up. Do 
they have that same comprehension? The people on the street.
    Ambassador Wells. I think certainly--I am probably not 
capable of answering that question. But what I would say, sir, 
is that enshrined within the Afghan constitution is the ability 
to change it and the ability to convoke a constitutional loya 
jirga--a traditional gathering of Afghan leaders.
    So I think Afghanistan's constitution does not deny 
Afghanistan's and traditional forms as well.
    Mr. Yoho. It doesn't deny it. But it doesn't empower the 
people, because--I am going to just cut it off here because we 
are out of time. But I appreciate your time and I'd love to 
talk to you more.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Yoho.
    Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Ambassador, very much for your service, and 
it's very personal to me, the significance of Afghanistan, and 
that is the attacks of 9/11 occurred from a cave--Osama bin 
Laden operating out of a cave in Afghanistan to attack the 
people of the United States and so, to me, the success of what 
you are trying to do is so important.
    And then I am also grateful--my former National Guard Unit, 
the 218th brigade led by General Bob Livingston--served there 
for a year and developed extraordinary appreciation of the 
people and the talents of the people of Afghanistan.
    And then I am also grateful my youngest son, Second 
Lieutenant Hunter Wilson, served for a year as an engineer. So 
I've seen it from ground up with almost 15 visits over the 
years to see the potential that we have and it's so important.
    And, of course, it does relate to the global war on 
terrorists and that is that the focus of counter ISIS captain 
has been on Syria and Iraq.
    But ISIS has a foothold in Afghanistan and continues to 
launch attacks against Afghan and coalition forces. To what 
extent is the Islamic State Khorasan Province--ISKP--a threat 
to stability of the security of Afghanistan?
    Ambassador Wells. Estimates are broad but perhaps 2,000 to 
5,000 ISIS fighters exist in Afghanistan. They are primarily 
drawn from other disaffected members of other terrorist groups, 
whether it's the Taliban or TTP or IMU--the Uzbek dominated 
group.
    But I think we have to be cornered by its resilience. We 
take it seriously. We have targeted heavily in Nangarhar
    and Kunar and as well as in Jowzjan in the north where 
there is been an outpost, and it's a reminder to us that there 
is something worse than an insurgency that's nationalist in 
nature.
    So it is a threat we take extremely seriously and have 
devoted significant assets to eradicating.
    Mr. Wilson. And indeed, a safe haven for ISIS, for Islamic 
terrorists there had direct consequence here.
    Have the changes in the ISIS relationships with other 
groups in the area or activity internal cohesion or operational 
abilities--to what extent is the group a target of U.S. 
operations or strategic planning?
    Ambassador Wells. I think ISIS is a reminder of why we are 
still in Afghanistan and need to have this commitment to 
Afghanistan, because the chaos and the insecurity that the 
Taliban insurgency has created has allowed this petri dish for 
other terrorist groups to take advantage.
    We are in Afghanistan because Afghanistan poses a threat to 
our homeland and it poses a threat to our allies, and we take 
it very seriously.
    I would defer to my military colleagues for the details of 
the counterterrorism operations that are underway. But we have 
intensified those operations.
    We have taken out the leader of ISIS K in Jowzjan and we 
continue to--I think we have conducted over 1,400 operations 
over the course of the last year directed against ISIS.
    Mr. Wilson. And, Ambassador, your comments are just so 
refreshing to the real world and the ultimate result, 
protecting American families.
    Last August, the administration announced the new South 
Asia strategy, which focused on conditions-based rather than 
time-based objectives. What are the conditional-based 
objectives are we utilizing to measure success?
    Ambassador Wells. That is going to be the cessation of ties 
to terrorism, the cessation of violence, and support for the 
constitution that can be achieved through a negotiated 
political settlement.
    Mr. Wilson. And finally, Afghanistan is a critical point in 
democracy. What democratic institutions have been most reliable 
and effective in promoting voter education and rights of the 
Afghani people and are they capable of producing credible 
elections this fall?
    Ambassador Wells. The independent election commission has 
the lead. This is going to be the first Afghan-led and 
conducted election. This is not an election that's being put on 
by the international community or the U.N.
    And so that's a reflection of the increased capacity. I 
think political parties also have an important role to play in 
educating and encouraging Afghans to vote and to understand the 
system.
    And this is very much a work in progress. There are very 
few countries that are younger than modern Afghanistan. And so 
I think we have to expect that improvements will occur over 
time.
    Mr. Wilson. Thank you very much.
    Thank you, Mr. Chairman, for your leadership.
    Chairman Royce. Thank you, Mr. Wilson.
    Mr. Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    I want to thank my colleague, Joe Wilson, and the 
Ambassador, because I heard something that really, I thought, 
was succinct and insightful and that is, I believe, 
paraphrasing, there are threats greater than an Islamist 
insurgency that's nationalist in its nature.
    So we recognize that while the Taliban is bad that the 
ISIS, which has a global sort of orientation is probably worse, 
which doesn't eradicate our responsibility to address the 
Taliban, particularly as it relates to sort of if you break it 
you buy it and the circumstances on the ground in Afghanistan.
    But let me go, for a moment, down that road. I think we 
fail when we overlap an American paradigm on the foreign 
affairs arena. Americans presume that when we deal with other 
nations there is a strong preeminent Federal Government.
    I would argue that in Afghanistan right now, try as they 
might, there is not that--that they aspire to have a strong 
preeminent Federal Government but the fact that you can't drive 
from the airfield to the compound without enhanced security 
measures would indicate that in fact the control of the 
centralized Government of Afghanistan isn't what they'd like 
for it to be--the security apparatus, et cetera.
    So we need to understand the reality on the ground in 
whatever country that we are dealing with, in this case 
Afghanistan, doesn't mirror that which we have become familiar 
with here at home.
    Number two, we talk about the Taliban, and I would posit 
and seek your comment in a moment on the fact that I would 
argue at this juncture there is no ``the Taliban.'' There are 
Talibans. In other words, there is no unified central control 
of Taliban-oriented elements as there was, say, for example, 
under Mullah Omar, but instead sort of disparate warlords with 
some overlap as it relates to their interests who act, in many 
instances, autonomously, thus creating an even harder 
circumstance for folks like yourself, Ambassador Wells, and any 
NATO forces, coalition forces, and the Federal Government of 
Afghanistan to deal with because we see things like atrocities 
committed against civilian contractors driving supplies, et 
cetera, that are documented on the internet, which, obviously, 
the useful end to those would be many fold--that is, to 
intimidate those who would work for the Federal Government, to 
intimidate the coalition, et cetera--perpetrated by subgroups 
of the Taliban but not endorsed by other groups.
    Eliot Engel said in his opening comments, you need not make 
peace with your friends, which I thought was insightful in and 
of itself, and yet there are Taliban elements that have 
expressed, I would argue, differing degrees of willingness to 
sit down and talk, and there are those who will probably be, 
for lack of a better, more artistic term, dead enders.
    So with that as a basis, the money for the narcotics 
industry in Afghanistan does not flow, I would ask, directly to 
the government. Is that correct?
    Ambassador Wells. Sorry. The money from where?
    Mr. Garrett. So the money from the narcotics industries in 
Afghanistan--the poppy fields, et cetera--does not flow 
directly to the Federal Government--some of it ends up there. 
But it doesn't, correct?
    Ambassador Wells. No.
    Mr. Garrett. But the aid that's administered to Afghanistan 
from the United States, its allies--the coalition, if you 
will--does flow through the government, correct?
    Ambassador Wells. It flows through--a portion of it flows 
through a trust fund that's administered by the World Bank----
    Mr. Garrett. Right.
    Ambassador Wells [continuing]. And then the remaining money 
with just a very little bit of an exception is administered 
separately on off-budget programs administered by USAID and 
others.
    Mr. Garrett. What I am driving at--yes, ma'am.
    And so what I am driving at, though, is that perhaps have 
we considered a paradigm wherein we tie aid and development to 
Afghanistan to eradication efforts? In other words, the 
government benefits and hopefully strengthens itself as it 
relates to creating stable sustainable Afghanistan where there 
is this broad a spectrum of home, moving forward, as possible, 
more directly from revenues from the international community 
than from the narcotics-developing community, correct?
    Ambassador Wells. But the challenge we face is 85 percent 
of opium is produced in Taliban-controlled or contested areas 
and so, again, this is a security issue, I think, is a first 
cut.
    Mr. Garrett. But you've said earlier today that the 
Government of Afghanistan has indicated an interest in not 
undergoing eradication programs at this juncture. Is that an 
accurate assessment?
    Ambassador Wells. Yes. The government would assess--it 
would increase the appeal perhaps of insurgent organizations.
    Mr. Garrett. Right. And so it's something to talk about. I 
am not dictating that this is what I think the policy should 
be. But if you look at what the actual functioning Federal 
Government, to the extent that it exists in Afghanistan, 
derives benefit from, I would submit that if they were given an 
either/or, they would probably fall on the side we wanted them 
on.
    Going--really quickly, there is a man cap tax on 
contractors in Afghanistan that we have become aware of that 
stems from the Karzai regime, which is arbitrary and probably 
not consistent with existing agreements.
    Has anything been done to address that? Because what it 
does ultimately is it taxes the American citizens as we pay for 
contractor missions to develop infrastructure, security, et 
cetera, by virtue of creating additional cost.
    Has anybody done anything about this man cap tax? Are you 
familiar with that which I am speaking of?
    Ambassador Wells. I am not. But we can follow up.
    Mr. Garrett. Thank you so much. I've run out of time.
    I thank the chairman. Thank you, Ambassador Wells.
    Chairman Royce. Thank you. Mr. Garrett, thank you very 
much.
    And I thank you also, Ambassador Wells. We have heard 
creating the circumstances for a peaceful and stable 
Afghanistan is a very complex but very critical mission.
    The administration has taken several good steps toward that 
end. But we need to see more progress, and at this point we 
have got 1 minute left to a vote on the floor.
    So this hearing is adjourned. Thank you.
    [Whereupon, at 11:38 a.m., the committee was adjourned.]

                                    

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
